<html>
<title> - OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 115-260]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-260

                             OVERSIGHT OF 
                   THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.govinfo.gov 
        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

30-271 PDF                     WASHINGTON : 2018         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 21, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   117

                               WITNESSES

Svinicki, Kristine, Chairman, U.S. Nuclear Regulatory Commission.     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Barrasso.........................................    22
        Senator Capito...........................................    52
        Senator Fischer..........................................    62
        Senator Markey...........................................    75
        Senator Rounds...........................................    85
        Senator Sanders..........................................    93
Baran, Jeff, Commissioner, U.S. Nuclear Regulatory Commission....    97
    Prepared statement...........................................    98
    Responses to additional questions from:
        Senator Markey...........................................    99
        Senator Sanders..........................................   100
Burns, Stephen, Commissioner, U.S. Nuclear Regulatory Commission.   102
    Prepared statement...........................................   103
    Responses to additional questions from Senator Sanders.......   104

 
                             OVERSIGHT OF 
                   THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                       WEDNESDAY, MARCH 21, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Wicker, Ernst, Carper, Cardin, Whitehouse, Gillibrand, Booker, 
Markey, Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning.
    I call this hearing to order. Today's oversight hearing 
will be looking at the Nuclear Regulatory Commission, the NRC.
    I would like to welcome Chairman Svinicki, Commissioner 
Baran, and Commissioner Burns. Thank you very much.
    I am sad to say that the Commission remains without its 
full strength of five commissioners. I believe that the 
Commission functions best with all five commissioners in place. 
I continue to work to resolve this situation.
    If we don't make progress shortly, the NRC will lose its 
three-member quorum at the end of June. The Senate cannot let 
that happen. Since Congress established the NRC in 1974, the 
agency has lost its quorum only once. That took place over a 7 
month period in 1995 and 1996.
    During that time the Commission delegated its authority to 
Chairman Shirley Jackson. Not surprisingly, anti-nuclear 
activists then challenged that delegation of authority. If the 
NRC loses its quorum in June, I fully expect those same forces 
to once again challenge the NRC's authority and ability to act. 
We simply cannot allow our Nation's nuclear safety regulator to 
lose its quorum.
    I will now turn to the NRC's budget request for fiscal year 
2019. Last month the NRC requested about $971 million to 
support the work of 3,247 full-time equivalents in terms of 
employees.
    The Nuclear Reactor Safety Program, which includes the 
NRC's efforts to license, regulate, and oversee civilian 
nuclear power, would account for about $475 million and 1,925 
full-time equivalents. The Nuclear Materials and Waste Safety 
Program, which includes the NRC's efforts to license, regulate, 
and oversee nuclear materials and waste, would account for 
about $184 million and 650 full-time equivalents.
    Under Federal law, the NRC must recover 90 percent of its 
budget through fees that the agency levies on licensees. I 
believe the key question that Congress needs to ask is: Does 
the NRC's expected workload in 2019 justify licensees paying 
for a budget increase?
    I ask this because at the end of fiscal year 2017 the NRC 
had over budgeted by $31 million. For years, the NRC's workload 
has been decreasing. Once again, the agency is requesting a 
budget increase.
    For example, in fiscal year 2019 three of the Nation's 99 
nuclear power plants are scheduled to close. This includes 
Oyster Creek Power Station, which Exelon recently announced 
would close 1 year ahead of schedule.
    Nonetheless, the NRC is asking for an increase in funding 
to oversee our Nation's decreasing civilian nuclear fleet. The 
NRC's workload on licensing activities for fuel facilities is 
also expected to decrease in fiscal year 2019. Last year the 
number of fuel facilities declined from nine to seven. Still, 
the NRC is asking for an increase in funding for its fuel 
facilities program. I continue to believe Congress must ensure 
that the NRC's budget accurately reflects the agency's 
workload.
    Finally, I would like to say a few words about the dire 
situation that our Nation's uranium producers are facing. In 
2017 the U.S. produced uranium at the lowest level since 1950, 
before our country had commercial nuclear power reactors.
    Despite the rich uranium resources in Wyoming, Nebraska, 
and other western States, America's uranium producers now 
supply less than 5 percent of America's nuclear fuel. Instead, 
we import 90 percent of our fuel. Forty percent of these 
imports come from Russia, Kazakhstan and Uzbekistan.
    In January two U.S. uranium producers filed a petition with 
the Department of Commerce asking for an investigation into the 
unfair trade practices of these countries. I understand some 
utilities are asking the Department to reject this petition. I 
find that deeply troubling.
    For years these utilities have complained that the market 
undervalues their product, electricity generated from nuclear 
power. These utilities have lobbied Congress and State 
legislatures for help to keep their plants open.
    Now, Russia and its satellites are trying to put America's 
uranium producers out of business. Some of these same utilities 
are fighting efforts to prevent that. I find their position 
profoundly shortsighted.
    Nuclear fuel production is vital to our national security, 
and I call on the Commerce Department to begin an 
investigation.
    With that, I would now like to turn to Ranking Member 
Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    One and all, welcome. We are glad to see you, appreciate 
your service and you joining us today for this important 
hearing. As the Chairman said, we are here today to continue 
our oversight of the Nuclear Regulatory Commission and to hear 
more about the President's budget proposal for fiscal year 
2019.
    Since joining the Environment and Public Works Committee in 
2001, I have worked closely with my colleagues to try to 
strengthen the culture of safety within the U.S. nuclear energy 
industry. I am proud of the work we have done together.
    In part, due to our collective efforts, thanks to the NRC 
leadership and the Commission's dedicated staff, some of whom 
are here today, the NRC continues to be the world's gold 
standard for nuclear regulatory agencies. We are proud of that.
    A successful organization also needs a strong and dedicated 
work force with the necessary resources for it to be 
successful. At one time employees ranked the NRC as the top 
place to work in the entire Federal Government.
    However, today, the NRC has dropped to 11 in the rankings. 
Budget cuts and uncertainty in the nuclear industry probably 
play a big role in how NRC employees view and rank their 
workplace.
    As someone who has made it a priority to get better results 
for less money across the Federal Government, I believe there 
are smart ways we can save Federal money without crippling an 
agency's mission or morale. We can--and we must--save money 
across Federal agencies without taking away peoples' 
healthcare, eliminating protections for our environment, public 
health, or cutting programs that communities rely on. That is 
especially true for the NRC.
    I support improving the NRC's efficiency and its 
flexibility to respond to changes in the nuclear industry. 
However, we cannot cut just for the sake of cutting. We must 
ensure that NRC has adequate funding to continue to attract the 
best and brightest talent so that the agency continues to be 
the global standard for safety.
    Today I am interested in hearing if the President's 
budget--which I believe falls short in a number of areas--will 
provide the NRC enough funding to protect the public and be 
responsive to the industry's needs as well. Beyond the budget, 
I am particularly interested in hearing more about what the NRC 
is doing to protect our nuclear reactors from cyber attacks and 
with respect to the evolvement of advanced reactors and 
advanced fuels.
    As many in this room know, the nuclear industry is facing a 
growing list of challenges. I believe there is still hope for 
carbon-free technology. The decisions we make today will affect 
the industry for generations to come.
    If our country is smart, and I think we are, we will 
replace older nuclear technology with new technology developed 
right here in America that is safer, produces less spent fuel, 
is cheaper to build and operate. That way we can reap the 
economic and clean air benefits of a new advanced nuclear 
generation. In order to do so, we must make sure the NRC has 
the resources it needs to review these new technologies and 
ensure our current nuclear reactor fleet remains safe.
    Before I conclude, Mr. Chairman, and allow you to introduce 
our witnesses, I want to take sort of a bittersweet moment as 
we pause to say goodbye to Gabrielle Batkin. Gabrielle Batkin 
has signed to play for the Detroit Tigers, my all-time favorite 
baseball team, so I started to follow her career. Actually, she 
is going to work in the private sector and has a great 
opportunity. We are happy for her.
    Mr. Chairman, you and I and our colleagues on the Committee 
get together almost every week for hearings like this. While I 
know that we usually make it look easy, there are so many staff 
members who put in a lot of time and hard work to make sure we 
can hear from smart people like those before us today and get 
to the bottom of important issues for the American people.
    One of the key staffers in our committee, for both sides of 
the aisle, is Gabrielle Batkin. While she will be a bit 
uncomfortable with what I am doing right now, she deserves to 
be recognized today for more than 20 years of service not just 
to the Senate but also to our country. She started at the age 
of 12 and has hung in there ever since. Gabrielle, who serves 
as Staff Director for our team on this Committee, has sat 
through a lot of Committee hearings during her time in the 
Senate from the Senate Budget Committee to the Appropriations 
Committee, to Homeland Security and Governmental Affairs, and 
now at EPW.
    You name the policy, and I would bet you that Gabrielle has 
worked on it. All the members she has advised over these years, 
starting with Frank Lautenberg, maybe the first, but others 
including Barbara Mikulski and myself, have reaped the benefits 
because Gabrielle was doing the lion's share of the work behind 
each of us.
    She helped lead my team first on the Senate Homeland 
Security Committee and then on the Governmental Affairs 
Committee starting in 2014 when I was Chairman and seamlessly 
transitioned to her current role on this Committee a little 
more than a year ago. All of my colleagues know what a 
professional Gabrielle is, as do the NRC Commissioners before 
us today.
    I am sad to say that after more than two decades, this will 
be her final hearing as a Senate staffer unless she comes 
begging back to be readmitted to the team, which probably is 
not going to happen. I am immensely grateful for her service, 
not just to this institution, but to the American people and 
for her indispensable counsel over the past 4 years I have been 
fortunate to work--my script says ``work with her,'' but work 
for her. She has been a great boss.
    I am also excited for her new adventures to come. She will 
be starting as Vice President for Legislative Affairs at 
Northrop Grumman. We wish her family: her husband, Josh; three 
boys, Henry, Will, Charlie; all the best in this new chapter of 
their lives.
    Every now and then we meet people in our lives and 
sometimes we are fortunate to work with them, who are just a 
joy to be with. They make our days brighter and our workload 
lighter. Gabrielle is just that kind of person.
    We did not steal her from Barbara Mikulski, but we 
inherited her from Barbara Mikulski. For 2 years after that, 
Barbara never spoke to me, which is a mixed blessing. Gabrielle 
is not a mixed blessing. She is a true blessing, has been for 
as long as I have known her. I am going to miss her hugely. We 
wish her and her family all the best. If she does ever get 
tired and bored with what is on the outside, we will warmly 
welcome her back.
    Gabrielle, we will leave the light on for as long as it 
takes.
    Thank you so much. I yield back my time.
    Senator Barrasso. Thank you very much, Senator Carper.
    Everyone on both sides of the aisle will certainly miss 
Gabrielle. If she does go to play for the Detroit Tigers, as 
you said, your favorite team--former Senator Jim Bunning played 
for and was a pitcher for that team. If she is pitching the 
ball, I know she is going to be different than Senator Bunning 
because I think he had the record for bean balls in the major 
leagues, both the American and National Leagues.
    She has never thrown a bean ball in her life, never pitched 
it in the dirt, and always pitched it straight down the middle, 
sometimes a fast ball but always straight down the middle. As a 
fielder, I expect she would be a Golden Glover, and at the bat, 
there will be one home run after another. From both sides of 
the aisle, we wish her every success.
    Senator Carper. Jim Bunning was my childhood hero growing 
up. We both ended up being in the House of Representatives. I 
loved the Tigers growing up, and I still love the Tigers. We 
played against each other in the congressional baseball game. 
My first at bat against him, he tries to hit me.
    Senator Inhofe. Did he hit you?
    Senator Carper. Missed me. Unfortunately, I missed his 
pitch, too.
    Senator Barrasso. He said that at a prayer breakfast, he 
said he never hit--well, we will leave it at that.
    Senator Carper. Fortunately, although Gabrielle is leaving, 
Mary Frances Repco is here as our deputy to step up and take on 
this leadership role. We are blessed. Gabrielle has put 
together a wonderful team. We are lucky she is here to carry 
the load and help us go forth.
    Senator Barrasso. We will now turn to our witnesses. We 
will continue the Committee's practice of a 5 minute opening 
statement by Chairman Svinicki and 2 minute statements from 
each of the Commissioners.
    I will note that Commissioner Burns will be with us until 
11 a.m. this morning at which point he needs to depart for a 
previous family obligation.
    I want to remind the witnesses, your full written testimony 
will be made a part of the official hearing record today.
    Chairman Svinicki, please proceed.

                STATEMENT OF KRISTINE SVINICKI, 
          CHAIRMAN, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Barrasso. Good morning 
also to Ranking Member Carper and distinguished members of the 
Committee. My colleagues and I appreciate the opportunity to 
appear before you today to discuss the U.S. NRC's fiscal year 
2019 budget requests.
    I would note that my oral statement was a summary at a high 
level of the budget. Chairman Barrasso, you have already 
described that in your opening statement. I will just further 
summarize by stating that the funding we are requesting for 
fiscal year 2019 we are confident provides the resources 
necessary to accomplish our mission to license and regulate the 
civilian use of radioactive materials, to ensure adequate 
protection of public health and safety, and to promote the 
common defense and security.
    One of the very significant changes to our budget is the 
requested increase in resources tied to proposed activities 
related to the license application for the Yucca Mountain deep 
geologic repository. Additional funding is also requested to 
further the development of a regulatory infrastructure needed 
to review advanced nuclear reactor technologies. We also have 
an increment of funding for development of advanced or accident 
tolerant fuels.
    I have not coordinated with my colleagues, but I will go 
out on a limb to say that over the years, our Commission has 
really valued our relationship with the highly professional 
staff of this Committee. I know we wish Gabrielle well. To all 
the members of your very, very capable staff, thank you for the 
hard work you do in support of the important work of the U.S. 
Nuclear Regulatory Commission.
    Thank you.
    [The prepared statement of Ms. Svinicki follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. Commissioner Baran.

                   STATEMENT OF JEFF BARAN, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Baran. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity to 
testify today. It is great to be here with my colleagues to 
discuss NRC's fiscal year 2019 budget request and the work of 
the Commission.
    Chairman Svinicki provided an overview of NRC's budget 
request. I want to briefly highlight a few related efforts 
underway at NRC.
    I will start with Project Aim. Our multiyear efforts take a 
hard look at what work the agency is doing and how we are doing 
that work. The goals have been to become more efficient and 
agile and to prepare for the future.
    The result of Project Aim and our very limited external 
hiring has been dramatic. In just 2 years NRC's work force has 
declined by more than 12 percent. The agency started the 
current fiscal year with around 3,200 employees, about the same 
staffing level as in 2006 before NRC started a ramp-up for the 
anticipated wave of new reactor applications.
    When Project Aim got underway in 2015 the NRC staff 
envisioned that it would take until 2020 to match the agency's 
resources to its workload, but NRC was able to make progress 
much more quickly in getting to the right staffing level for 
our current and expected workload.
    Going forward, we need to internalize an enduring focus on 
efficiency. For the agency's long term health we also need a 
stable pipeline of new talent through external hiring and an 
emphasis on maintaining the NRC staff's core technical 
capabilities and safety inspection activities.
    The NRC staff has launched a transformation initiative to 
identify any steps the agency should take to improve its 
approach for reviewing new and novel technologies such as 
advanced reactors, accident tolerant fuel, and digital 
instrumentation and controls. I think that is a good focus for 
the transformation team and appreciate that the team is doing a 
lot of outreach to stakeholders. I look forward to hearing 
their thoughts and recommendations.
    There are many other important activities underway at NRC 
including implementation of post-Fukushima safety enhancements, 
the power reactor decommissioning rulemaking, review of the 
first small modular reactor design application and oversight of 
construction at the Vogtle site. We are happy to discuss these 
and any other issues of interest.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Baran follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Senator Barrasso. Thank you very much, Commissioner Baran.
    Commissioner Burns.

                  STATEMENT OF STEPHEN BURNS, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Burns. Chairman Barrasso, Ranking Member Carper, and 
distinguished members of the Committee, I appreciate the 
opportunity to testify before you today on our fiscal year 2019 
budget proposal. I support the Chairman's testimony and agree 
that the funding we are requesting provides the resources 
necessary to accomplish our safety and security mission while 
continuing to improve our efficiency and effectiveness.
    As you know, the NRC has undertaken significant efforts 
over the last few years to improve its efficiency and 
effectiveness. Project Aim was a part of those efforts but by 
no means the only part. Additional improvements were also 
implemented to the NRC's rulemaking processes, its budget 
formulation, fee calculations and billing, and also agency 
staffing and work force planning.
    While the vast majority of the specific tasks under Project 
Aim have been completed, its spirit still endures. It is 
important not to lose sight of the fundamental safety and 
security mission of the NRC.
    From its inception the NRC has continued to have a central 
focus on safety and security in what we do every day. We can 
always strive to perform better in our mission and better risk-
inform our decisions, but safety and security must always be 
the central focus.
    About 40 years ago this year I began my professional career 
with the NRC. I know there were times when we have had to learn 
from our experience, learn to do better, and improve our 
performance as a regulator, but on the whole, I can say I think 
we hit the mark the vast majority of the time in achieving a 
high standard of performance. Over the past year we continued 
to hold the industry accountable through our inspection and 
oversight program, ensured the effective implementation of 
lessons learned from the Fukushima Daiichi accident, focused on 
cyber security, worked effectively with our partners and the 
States to ensure the safe and secure use of radioactive 
material.
    At the same time, we have undertaken reviews of the first 
small modular reactors. We are implementing strategies to be 
better prepared for the licensing and review of advance reactor 
design. Again, I think the credit belongs to the staff for much 
of the effort today with the Commission's leadership.
    I appreciate the Committee's willingness to accommodate my 
departure today at 11 a.m. I am off to Colorado for my niece's 
wedding and am looking forward to that.
    Thank you very much.
    [The prepared statement of Mr. Burns follows:]  
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Barrasso. Best wishes to your niece, and safe 
travels to you. We appreciate it.
    We will go to some rounds of questions. I will start with 
Chairman Svinicki.
    The State of Wyoming is currently in the process of 
becoming an NRC agreement State. That means Wyoming is going to 
assume the role of the primary regulator of in situ uranium 
recovery. I understand Wyoming submitted its application to the 
NRC on November 13, 2017.
    We expect to be able to sign a final agreement with the NRC 
by September 30, 2018, at the end of this Federal fiscal year. 
Do you know if the NRC is on track to meet the deadlines?
    Ms. Svinicki. Yes, Chairman Barrasso. The staff is on track 
to present the voting matter to the Commission in September. I 
would acknowledge the practical realities of the turnover of 
the fiscal year would make it desirable for the Commission to 
act in a timely way.
    I have served on the Commission for other agreements and 
State agreements. Assuming the NRC staff in Wyoming do careful 
work, if the agreement is presented to us in accordance with 
the requirements, my experience is the deliberation is not 
overly long, and it is merely a verification that the needed 
elements are there.
    Senator Barrasso. Terrific. I know the NRC's most recent 
monthly report indicates the agency is currently reviewing I 
think four major uranium recovery proposals in Wyoming. 
Specifically, the NRC is considering two renewals of existing 
uranium recovery licenses and two expansions of existing 
uranium recovery licenses.
    I understand the NRC anticipates completing its review of 
these proposals by the end of September 2018. That is when 
Wyoming is expected to become the agreement State. It is 
important for the NRC to complete its review of these four 
uranium recovery proposals by September in order to have a 
smooth transition to Wyoming as the new regulatory authority.
    Will you please commit to informing my staff immediately if 
the NRC does not think it can complete its review of these four 
proposals by the end of the fiscal year?
    Ms. Svinicki. Yes, we will inform you. Again, my past 
experience is it benefits both, the NRC, the agreement State 
and the licensees, if we can have the most orderly transfer of 
responsibility. Sometimes that includes realizing what pending 
actions are before us and the timely completion of those.
    Senator Barrasso. Now, I would like to turn to the topic of 
cyber attacks. Senator Carper raised the issue in his opening 
comments as well.
    Last week, the Department of Homeland Security and the FBI 
issued a joint alert stating, ``Since at least March 2016, 
Russian government cyber actors targeted government entities 
and multiple U.S. critical infrastructure sectors, including 
the energy, nuclear, commercial facilities, water, aviation, 
and critical manufacturing sectors.''
    I understand that these cyber attacks have penetrated some 
corporate networks but have not infiltrated the critical 
safety, security, and control systems of nuclear power plants. 
Is that correct?
    Ms. Svinicki. That is accurate. Respecting the public 
setting, I would also note that the nature of the things 
declassified and released by the FBI last week are issues we 
have been monitoring very, very closely with the interagency. 
Yes, there were penetrations and probing of corporate systems, 
but there was not successful penetration on the operational 
side.
    Senator Barrasso. If that situation changes and the NRC 
learns of a successful penetration of critical nuclear plant 
systems, will you commit to immediately briefing this 
Committee?
    Ms. Svinicki. Yes.
    Senator Barrasso. Thank you.
    I would now like to ask a question and have you answer it 
not in your role as NRC Chairman but based on your personal 
experience in the nuclear field. Prior to your service on the 
Commission, you served as a professional staff member of the 
Senate Armed Services Committee where you were responsible for 
nuclear issues. Before your tenure in the Senate, you worked at 
the Department of Energy's Office of Nuclear Energy. You, of 
course, are a nuclear engineer.
    Do you think maintaining uranium production in the U.S. is 
critical to our national security?
    Ms. Svinicki. I appreciate you are making a distinction 
between my role as NRC Chairman. Of course, our Commission is 
policy neutral. I know there are pending actions before the 
Commerce Department and other trade matters.
    You asked me this at a time when last week, I had 
responsibility as NRC Chairman to sign the extension of a 
cooperation agreement with a Ukrainian regulator. He also 
brought along the Ukrainian ambassador to the U.S. It was an 
opportunity to hear from a country that overnight found itself 
somewhat hostage to a country for energy and nuclear fuel 
supply. The practical realities of that are a very complicated 
matter for the Ukraine.
    The broad principle of having some energy security and 
diversity, sitting with my colleagues from Ukraine, I will say 
that went from a conceptual conversation to a very real 
conversation as they described what they face there. Again, 
last week I had the opportunity to see what it is to not have 
domestic production or supply and depending on the actions of 
other countries, it can be an overnight problem for your 
country.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Senator Carper.
    Senator Carper. The questions from our Chairman with 
respect to cyber security and your comments about the misdeeds 
of the Russians in that regard lead me to ask for 
clarification. Is there anything to the report I heard that the 
Commissioners are planning on sending a congratulatory letter 
to the President of Russia for his reelection? I hope that is 
not true. Is it? Can you confirm that is not true?
    Ms. Svinicki. It is not. No, we have no planned 
communications of that nature.
    Senator Carper. That is good.
    On a serious note, I have a question, if I could, for 
Commissioner Baran. Earlier, I mentioned morale. I served with 
some of my colleagues on Homeland Security and Governmental 
Affairs for years. I served on this Committee with my 
colleagues, and the NRC had the best morale of all Federal 
employees.
    Over at the Department of Homeland Security, they suffered 
the worst. Now what is happening there is after years of trying 
to raise morale, it is coming up, which is very encouraging. We 
are seeing sort of the opposite happening with the Nuclear 
Regulatory Commission.
    I would just ask Commissioner Baran, just briefly, are we 
at a point where budget cuts to the NRC are affecting morale, 
the ability to recruit the kind of people we need and the 
ability to complete work in a timely manner? If we are not at 
that point, are we getting close to that point?
    Mr. Baran. I think the answer is we are getting close to 
that point and maybe, to some extent, at that point. It is hard 
to know exactly what drives morale one way or the other, but my 
sense is that because we have had significant cuts over the 
last few years, there are fewer promotional opportunities, 
fewer training opportunities, and it is hard to move around 
within the agency, which is one of the things that made the 
agency so great over the years.
    I think that does affect folks. I think people want to know 
there is a long term future for them at the agency. There was a 
period when, on the corporate support side, we were looking at 
a potential reduction in force. That is a scary thing for 
employees. We were able to avoid that, but it takes a toll.
    I am hopeful we are heading in the right direction with the 
staff and morale. I know there is a lot of focus from our 
senior managers on keeping folks engaged on the mission and 
their jobs, focusing on their potential to have really good, 
long careers at NRC and the opportunities available to them.
    I am hopeful we are going to be climbing back in the ranks 
again. I do think most of the reductions we have had over the 
last few years have made a lot of sense. I think we have done a 
good job bringing our budget in line with the workload we have 
and the anticipated workload.
    Reductions like 12 percent of FTE in 2 years are not 
something that is sustainable going forward from my point of 
view. I think we are at a point where we should be leveling 
off.
    Senator Carper. Good. Thanks so much.
    This will be a question for the full panel. On a more 
serious note, I want to come back to cyber security and ask you 
to discuss, if you will, the status of our nuclear reactors 
with respect to cyber security; do you support providing cyber 
security requirements, and what more could we be doing--the 
Federal Government, including us--to protect our commercial 
fleet?
    Do you want to lead that off, Madam Chairman?
    Ms. Svinicki. Cyber security is a very dynamic threat 
environment, so it is not the kind of area where you can put 
something forward and say this is going to be the enduring set 
of understandings for all times.
    I would depict it as a very active area of our oversight, 
not only in the implementation and inspection of the cyber 
security arrangements we have already put in place, but we 
continue to work, in closed session, with members of the U.S. 
intelligence community on what they currently see and over the 
horizon in terms of increasing capability of the threat actors 
against the United States. We bring a lot of attention to this 
matter.
    We have written our regulations in a way that they are 
robust going forward. They basically say the security outcome 
you need to achieve instead of the exact methods of how you do 
it. As adversaries become more capable, our regulations still 
are written to say what the end state of a secure system looks 
like.
    Senator Carper. I am going to go next to Commissioner Burns 
before I run out of time.
    Mr. Burns. I would agree with what the Chairman said. One 
of the things we put in place about 10 years ago was cyber 
requirements and cyber regulations. The utilities have been 
implementing that.
    We are in a phase now where we are doing further 
inspections to get lessons learned. I think a lot of that early 
on helped shake out what was important. As the Chairman said, 
ultimately, this is sort of a performance based type of 
requirement.
    I think we had some good discussions with the industry of 
what makes sense and from our standpoint, what made sense in 
terms of providing that high level of protection for the 
critical systems.
    Senator Carper. Mr. Baran, would you briefly comment, just 
some sense very briefly?
    Mr. Baran. I agree with everything my colleagues said. I 
would just note on the reactor side, NRC has been very forward 
leaning on cyber security. We are also now at the point of 
looking at cyber security requirements for the fuel cycle 
facilities.
    Senator Carper. Good. Thanks.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Thank you all for being here. We really do appreciate your 
hard work.
    Commissioner Baran, I would like to talk a bit about the 
question on the principle of good regulations reliability. 
Under this principle, regulatory actions should be fairly 
administered so as to lend stability to the nuclear operational 
and planning processes.
    The NRC recently announced an increase in fees for 
licensees, including fees for those licensees to pay to the NRC 
for inspection and assessment of their performance. There also 
has been an increase in inspection hours, and therefore cost to 
licensees attributed to the 95001 inspections where licensees 
have to redo these inspections due to localized NRC 
interpretation of the standards for successfully passing those 
inspections.
    These inspections are either performed for white findings 
that have low to moderate safety significance or for white 
performance indicators which represent performance outside an 
expected range of nominal utility performance but related to 
cornerstone objectives still being met. In other words, these 
inspections are intended to be the lowest of supplemental 
oversight provided to licensees. In the repeat inspections, 
there is often diminishing safety returns and unnecessary 
expenditure of resources by both the NRC and licensees.
    I guess the question is what is senior NRC leadership doing 
to improve the clarity of the standards for passing 95001 
inspections and providing oversight to the regions to ensure 
consistency of application for those standards such that there 
is fidelity to the reactor oversight processing corresponding 
adherence to the principles of good regulation.
    Mr. Baran. There is a great deal of coordination that goes 
on between our headquarters and the four regional 
administrators and the regional offices. As you pointed out, a 
lot of the inspection activities are done either by resident 
inspectors we have on the sites or by the regional offices.
    In recent years there has been a lot of focus, not just in 
this area on the particular inspection you referred to, but 
more broadly on making sure we are taking a holistic look and 
having a lot of focus on consistency across the regions.
    I think one of the very good things about the reactor 
oversight process is it is a staged process where, to the 
extent NRC inspectors are finding issues at a plant, the more 
issues they find, the higher the column a plant is in, or the 
increase in oversight that we see from the NRC staff.
    As you point out, the 95001 is really between column 1 
where everything is working fine and your column 2 where we 
have seen some issues. If you are stepping up and there have 
been more issues, those inspections get more and more focused 
and comprehensive. There is a lot of coordination that goes on 
to focus on inspections really at all those levels.
    Senator Boozman. Very good.
    Chairman Svinicki, every year licensees pay the NRC 
hundreds of millions of dollars in fees. Licensees often 
express the desire for more timely reviews and scheduled 
transparency particularly for licensing actions.
    Yesterday, the GAO released a report clearly stating 
without more transparency, the licensee does not know how much 
work remains and cannot budget for future expenses. The NRC's 
efficiency principle states, ``The American taxpayer, the rate 
paying consumer, and licensee are all entitled to the best 
possible management and administration of regulatory 
activities.''
    I guess the question is, don't you think the situation 
demonstrates room for improvement for fulfilling the principle? 
Given that licensees and applicants must fund 90 percent of the 
NRC's budget, don't you think it would be fair to give them 
additional scheduled transparency? Don't you think improving 
scheduled discipline and transparency is a necessary foundation 
for implementing any transformation initiatives to address new 
technologies?
    Ms. Svinicki. Thank you, Senator.
    Of course, we knew of the GAO findings and recommendations 
in that report since they do coordinate. The report contains 
the agency's response that we take no exception to the issues 
they raised.
    We do have plans--in many cases already underway--to 
address the areas on greater billing transparency the GAO has 
noticed and brought to our attention. Some of that work, the 
GAO suggested we needed to have project plans so that people 
would have an understanding of when some of the billing 
improvements would be put in place. I know our Chief Financial 
Officer is working on putting together that project plan.
    On your broader question about greater scheduled 
transparency, that is an objective of the agency. Project 
managers are assigned to various licensing matters. They are 
instructed to be in routine communication with licensees about 
pending matters, giving them information about the status of 
the review and how it is going.
    Again, we are always looking to improve efficiency and 
doing that, but I do think we do make strong efforts now in 
that regard.
    Senator Boozman. Thank you very much.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, all. I appreciate your being here.
    Chairman Svinicki, from your opening statement, it sounds 
like the NRC is already preparing for having an expanded role 
consistent with pieces of legislation working their way through 
or have worked their way through the Senate.
    I specifically refer to my legislation with Senator Crapo 
which has passed the Senate which puts the Nuclear Regulatory 
Commission with the Department of Energy and our National Labs, 
into a new process for next generation technology innovation 
with the private sector and the bill that passed with 
overwhelming bipartisan support, thanks to the support of 
Chairman Barrasso and Senators Capito, Fischer, and Rounds, and 
a number of Democrats as well, that requires the NRC to begin 
putting together new approval pathways for new nuclear 
technologies.
    When people in Rhode Island ask me about this, my simple 
minded explanation is that it is like asking your Tesla to go 
through the carburetor test at the DMV. It does not have one; 
it is a different technology. You need to come up with 
different tests.
    Could you fill me in a little bit on to what extent your 
existing budget--what you are proposing and defending here--
reflects additional effort in those two areas, supporting the 
private sector innovation and also trying to make sure that you 
have appropriate safety screening pathways in place for 
different technologies?
    Ms. Svinicki. Thank you, Senator.
    As you acknowledge, we agree that the current framework, 
although it can be bent and modified, and we could review an 
advanced reactor technology, it is not the most efficient 
approach for those technologies. A number of provisions would 
simply not be relevant, and that is not efficient.
    The fiscal year 2019 budget, based on input from advanced 
reactor developers, contemplates that fiscal 2019 is the 
earliest we might see an official submittal of an advanced 
reactor design for review.
    There is money requested in the budget on what we call the 
fee base meaning part of the fee recoverable work that we do 
for potential engagement with one or maybe two advanced reactor 
developers. That is a very fluid situation, as you know, so 
they will only submit if they are prepared. That would be a 
very concrete licensing review that would begin, so there is 
something genuinely new in the fiscal 2019 budget.
    In fiscal year 2018 we continue activities to engage 
broadly with advanced reactor designers in advance of them 
submitting anything for review. The Congress has provided to us 
off fee based funding, meaning we are able to do generic 
engagement with the advanced reactor community on how the 
licensing process can best meet their technology development 
schedules. We can do that without having to send them an 
invoice every time they talk to us.
    I think that created a regulatory efficiency that these 
developers do not have an obstacle to coming in and getting a 
regulatory reaction to aspects of their designs. I appreciate 
that Congress has supported that activity.
    We see the activity growing in terms of breadth but also 
growing in terms of depth in fiscal year 2019 and beyond.
    Senator Whitehouse. Those efforts are reflected in your 
budget request?
    Ms. Svinicki. They are, yes.
    Senator Whitehouse. Could you give us a quick update on 
where the pre-licensing conversations are with New Scale and 
Oklo, I think are the companies. Without getting into the 
details of their individual applications, how is that pre-
regulatory, pre-conversation process going?
    Ms. Svinicki. It continues to be very active as you have 
described. New Scale, of course, has submitted their design, 
and we have docketed that for review. As a small reactor design 
in the truly novel and advanced reactor community, Oklo does 
continue to be kind of a first mover. They appear to be moving 
out of the pack with some serious intent to submit a design in 
the coming years.
    I would say there are maybe one or two others that are in 
serious and detailed pre-application engagement. Beyond that, 
the field is kind of a spectrum where some are candidly little 
beyond a PowerPoint presentation, but others are getting into 
some meat of the actual design.
    Senator Whitehouse. On your side, are you satisfied with 
your ability to be effective in those pre-licensing 
conversations?
    Ms. Svinicki. We continue to solicit feedback about what is 
working most effectively. What the advanced reactor community 
prefers sometimes surprises me. Right now they want us to keep 
a very fluid process. They have said, in terms of getting 
investment, it benefits them if our system can accommodate 
their technology development.
    Also, they appreciate we are giving them dedicated project 
teams so that they do not have to re-introduce their technology 
to new NRC experts every time they come in.
    Senator Whitehouse. Thank you very much.
    Mr. Chairman, I failed to acknowledge that our colleague, 
Senator Booker, was the original co-sponsor of the nuclear 
innovation bill that just passed. I went down your side of the 
column on the other bill but not my side of the column on that 
bill. I apologize to Senator Booker for that oversight and 
yield back my time.
    Senator Booker. I would just like to point out again my 
conclusion that of the 100 Senators, I am the Rodney 
Dangerfield, so no respect.
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I thank all of you.
    Chairwoman Svinicki, I want to visit a topic we have talked 
about in the past. If it has already been covered in the 
questions, I apologize. I just came in a little late.
    In the December hearing I noted that your fiscal year 2018 
budget requested more FTEs than the NRC was actually going to 
have, which resulted in a $37 million carryover. I understand 
that was taken into consideration in the appropriations 
process.
    In fiscal year 2016 there was a $23 million carryover, and 
in fiscal year 2017 there was a $31 million carryover. I guess 
a pattern is developing that we might see in fiscal year 2019 
because you are expecting 3,090 FTEs, which is 157 fewer than 
you actually budgeted.
    I think a significant portion of this hiring increase is 
slated for the Yucca Mountain nuclear waste storage license 
review. My question is, unless the appropriators adjust 
accordingly, the NRC's licensees are forced to pay for these 
resources, is that correct?
    Ms. Svinicki. It is correct that they are recovered in 1 
year, although they may be offset by the fees that get set the 
following year, but it is imperfect, as you acknowledged, 
because they are billed in years. There is essentially an over-
recovery from them. We do true that up and adjust that in a 
subsequent year, but there is probably some inequity created in 
that process.
    Senator Capito. My understanding is that this is part of 
the reason that the licensees will see a 6.5 increase for this 
coming year to cover this?
    Ms. Svinicki. I would need to check that precise figure, 
but yes, for fiscal year 2018 we have gone out with a fee rule. 
We had to make a strategic choice there. Since this is an 
estimate for them, our feedback was bill payers would prefer to 
get an estimated fee that is the highest their invoice would 
be, knowing when we get to the final fee rule, if we have 
enacted levels for fiscal year 2018, we could possibly adjust 
those numbers.
    We decided do they want to see the case that is a lower 
bill but then ultimately, when we have an enacted level, it 
might be higher? Their preference was to know the highest level 
their bill might be. That is the way it has moved forward.
    Senator Capito. Yes. I wanted to ask a question about the 
small modular reactors. You mentioned New Scale in your 
statement. We had one of the TVA nominees here yesterday and 
talked about the full spectrum of energy resources they use at 
the TVA.
    I noticed that TVA has submitted some prospects of two or 
more modules. Is that correct? Could you talk about that?
    Ms. Svinicki. Yes. It is called an early site permit. It is 
a notification that they contemplate constructing an SMR at a 
particular site. What they have identified is the Clinch River 
site. It is under review.
    Senator Capito. Is there an existing facility there?
    Ms. Svinicki. There is not, but there is quite a lot of 
history. At one point, the United States was going to build, I 
believe, a breeder reactor at that site in the 1960s or 1970s. 
It has been a TVA property that has a bit of a nuclear history, 
but there is not currently a nuclear plant there.
    Senator Capito. I am going to wade into something that I do 
not know the answer to, which is always dangerous.
    What is the status of the Yucca Mountain nuclear waste site 
storage license review? What can we expect to see in the next 5 
years on this nuclear waste storage issue?
    Ms. Svinicki. Right now the activities NRC has been 
carrying out are with previously appropriated nuclear waste 
fund moneys, as you well know. All activities related to this 
particular Yucca Mountain development must be appropriated and 
executed with that particular color of money so that it is not 
something in these invoices we send to the utilities. It is a 
separate nuclear waste fund under the Nuclear Waste Policy Act.
    We had suspended our activities in 2010. That was 
challenged in court. The court then directed the NRC and the 
Department of Energy to expend the remaining money previously 
appropriated.
    Under the court's remand, we completed the safety 
evaluation report. The staff's safety review was completed. 
Their conclusion was they identified no obstacles to the 
issuance of a construction permit, absent the fact that DOE did 
not have title to the land at Yucca Mountain and did not have 
the water rights. Those were two legal obstacles, but the staff 
did not identify any safety obstacles.
    If funding were to be enacted this week under the fiscal 
year 2018, we would work to build the infrastructure, to resume 
the licensing proceeding, and that would mean restarting the 
adjudicatory hearings and reestablishing the document library 
that would support the evidentiary hearings that would be 
necessary.
    Senator Capito. Thank you very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Markey.
    Senator Markey. Thank you very much, Mr. Chairman.
    Madam Chair, I remain deeply concerned by reports that the 
Trump administration is attempting to negotiate a civil nuclear 
123 agreement with Saudi Arabia that may compromise on 
important nuclear nonproliferation controls as it tries to 
secure a commercial deal to sell American nuclear reactors.
    Madam Chair, has anyone from the Nuclear Regulatory 
Commission, including staff, participated in meetings with 
representatives from or acting on behalf of the Kingdom of 
Saudi Arabia to discuss a Saudi 123 agreement?
    Ms. Svinicki. In the development of 123 agreements under 
the Atomic Energy Act, the NRC experts are asked to review 
provisions of a draft arrangement to make certain that our 
export licensing framework responsibilities could be executed 
and that the provisions of law necessary are there. The NRC's 
involvement in draft agreements is limited to those export 
licensing provisions.
    Senator Markey. Have you been in meetings, has the Nuclear 
Regulatory Commission staff been in meetings, with the Saudis 
on this agreement?
    Ms. Svinicki. I am not aware that they have been. They have 
been in meetings in the interagency but not with the foreign 
governments, I don't believe.
    Senator Markey. Was the NRC staff part of Secretary Perry's 
recent delegation to London to meet with the Saudis?
    Ms. Svinicki. I don't believe we had any staff as part of 
that delegation. If I am wrong about that, may I respond for 
the record?
    Senator Markey. You may respond for the record, but 
honestly I think you should know the answer to that. There can 
be no more important thing you are going to be doing this year 
than reviewing the 123 agreement and know whether or not your 
staff is in a meeting with the Saudis on this type of 
agreement. I think that is absolutely essential.
    Ms. Svinicki. I am sorry. I have been informed that we did 
have one expert counsel there on the export arrangement.
    Senator Markey. That is good to know.
    During those meetings was there any discussion by any party 
of a 123 agreement permitting Saudi to enrich uranium or 
reprocess plutonium?
    Ms. Svinicki. We are not participating on the broader 
negotiation of the arrangement, Senator.
    Senator Markey. Do you know if, during the meeting your 
staff was in, the subject of uranium enrichment or plutonium 
reprocessing was raised?
    Ms. Svinicki. I do not, but that is not the scope of their 
expertise or their participation.
    Senator Markey. The reason this issue is so important to me 
is that, of course, the Atomic Energy Act requires the 
President to keep the Senate ``fully and currently informed of 
any initiative or negotiations relating to a new or amended 
agreement for peaceful nuclear cooperation.'' Yet the Energy 
Secretary leading a delegation to London to discuss a 123 
agreement with the Saudis so far has not, in any way, been 
given as a brief to any member of the Senate, which is in 
violation of the 2008 law.
    To the extent to which the NRC was in the meeting, the 
Department of Energy was in the meeting, the Department of 
State was in the meeting, and we still have not been briefed, 
that is not acceptable. The reason it is not acceptable is that 
the Saudi crown prince said in an interview just in the last 
few days, ``Saudi Arabia does not want to acquire any nuclear 
bomb, but without a doubt, if Iran developed a nuclear bomb, we 
will follow suit as soon as possible.''
    Well, President Trump is now saying that he is likely to 
end the Iran nuclear deal. As a result, if we put in place an 
agreement that allowed for uranium enrichment or plutonium 
reprocessing on the land of Saudi Arabia, it would be 
potentially disastrous because the Saudi prince is making it 
quite clear what they are interested in, what the Saudi nuclear 
envisions as the prince has expressed, are more about megatons 
than megawatts. They don't need nuclear power in Saudi Arabia. 
They are more solar than they know what to do with. It is 2 
cents a kilowatt hour in Mexico right now.
    This is about a clandestine nuclear weapons program on 
their ground. It is extremely dangerous. From my perspective, 
it is something the Administration has a responsibility to give 
immediate briefings to the Congress on what is happening in the 
United States right now, meetings with the Saudi prince in 
anticipation of a pull out of the Iran deal.
    We are putting ourselves in the middle of the Iran-Saudi 
Arabia proxy wars that could quickly escalate to nuclear wars 
if we are not careful. This has to have a full and open debate 
in our country.
    Each and every part of the Trump administration has a 
responsibility to give Congress frequent updates with regard to 
the progress of those negotiations. That is my view. The NRC 
plays a role, and so do other agencies. Right now, the Senate 
is in the dark. That is wrong.
    We are looking at a Shia-Sunni standoff. It is escalating 
in proxy battles across the Middle East. We do not need nuclear 
weapons to become part of the situation.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, first, let me thank you for 
your leadership on this issue and our Committee in our 
oversight role on nuclear power. I also want to acknowledge up 
front the tremendous work of Senator Booker on this issue.
    I want to raise two issues and get your response. I think 
they are related. I am very proud of the men and women who work 
at the Nuclear Regulatory Commission, particularly those who 
are from Maryland and your headquarters in Rockville. I am 
concerned about their ability moving forward to regulate safe 
nuclear energy considering that you have an aging work force. 
You have lost a lot of the more senior employees of the agency 
and they have not really been replenished. I am concerned about 
the work force issues at NRC and getting the support you need 
to carry out your critically important nuclear energy safety 
function.
    The second thing that concerns me is the economics of 
nuclear energy today. We depend upon nuclear energy, 20 percent 
of our total power and 60 percent of our carbon free. It is an 
important part of energy security here in America, yet the 
economics of it is becoming more and more difficult.
    We have an aging fleet of nuclear reactors that need 
attention. The economics of modernizing that fleet is not very 
bright at this particular moment.
    Looking at our commitment to maintaining our nuclear 
capacity for energy, how do you see your roles in facilitating 
America's needs, also recognizing the work force issues moving 
forward? How do we guarantee the people of this Nation that 
your work will be done putting safety first?
    Ms. Svinicki. I will begin. I appreciate your support for, 
and acknowledgement of, the NRC's very capable work force. 
Commissioner Baran commented earlier that when the agency was 
growing substantially, there was a lot of energy and excitement 
in the work force because opportunity was so much more readily 
available.
    Under the declining work force we have had and the hiring 
controls we have had in place for a number of years now where 
we look specifically at needed capability as employees depart 
or retire and making sure that we have the core competencies, 
there isn't the vibrancy of the growth and opportunity the 
agency had in previous years.
    I think that requires us to bring our best thinking and our 
skill sets, in terms of ways to motivate and keep employees 
engaged in the agency even as it gets smaller. I think the 
agency's innovation forum and transformation initiative are 
ways I hope employees can get excited about creating the NRC of 
the future of which they want to be a part. It is of concern 
though that our work force demographic is getting older, and we 
have very senior employees. We try to make targeted entry level 
hires to make sure we have experts of the future coming into 
the pipeline, but it is a challenge, as you note.
    Senator Cardin. On that issue, let me underscore a point. 
It would be helpful if Congress would not do things that harm 
public service. Some of our attacks on the Federal work force 
have an impact on your ability to attract the very best in your 
field who are very highly skilled individuals. Second, if you 
need more from us in that regard, please let us know.
    Ms. Svinicki. Thank you for that.
    On the broader economic headwinds for nuclear, I would note 
that falls more squarely in the jurisdiction of the Federal 
Energy Regulatory Commission. I know Secretary Perry and that 
commission have kind of an invigorated dialogue about that.
    We are not an economic regulator as FERC is. I think we 
take on board having the most efficient regulatory framework 
that we can. That would be something that maybe would be an 
aspect of the economic issues.
    In the strictest sense, it appears there are a lot of 
market forces and things at play in terms of units being 
profitable or not. That falls outside our jurisdiction. I don't 
know if Commissioner Baran would like to add to that.
    Mr. Baran. I agree with everything the Chairman said. I 
would just note part of our job as a safety and security 
regulator is to make sure we are focused on adapting to new 
technologies.
    One of the things you talked about was modernizing plants 
for the future, for example, digital instrumentation and 
controls. If you go to a control room today in most nuclear 
power plants, it is largely analog. It has worked very well 
over the decades but there are obsolescence and reliability 
issues.
    If you could move to more digital technology, I think there 
is broad agreement that is a safety improvement and probably 
also an economic improvement for the operator. However, we are 
focused on the safety piece. One of the things we are trying to 
do is really focus on those issues which have been tough, 
resolving how you make sure we do not add any unacceptable 
risks by going to digital, whether cyber security or other 
things.
    We also want to make sure we have a framework in place so 
if you have a utility which wants to make an upgrade because 
they think the plant is going to be there 2040 or 2050, into 
the future, how do we make sure we have a reliable regulatory 
framework to make that a reasonable proposition?
    Senator Cardin. Let me respond in 15 seconds, if I might.
    I acknowledge that your principal responsibility is not the 
economics, but if you have to regulate outdated reactors 
because of the economics of it, your job is much more 
challenging and difficult. I do believe there is a role for the 
NRC to play in making sure we have the most efficient fleet 
possible. That is also involved in the economics of the field.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Chairman Barrasso, Ranking Member Carper, thank you for 
holding this oversight hearing. Nuclear power provides a 
critical share of the Nation's electricity--about 20 percent of 
the total--and an even larger share of carbon-free electricity 
(about 60 percent). Nuclear power will be part of the energy 
mix for the foreseeable future--there are nearly 100 reactors 
currently operating in the U.S., including the two units at 
Calvert Cliffs in my home State of Maryland.
    The Nuclear Regulatory Commission's (NRC) job as an 
independent agency is neither to promote nor hinder the nuclear 
power industry but rather to regulate it, as effectively and 
efficiently as possible, in a manner that protects health and 
the environment.
    The fleet of commercial nuclear power reactors across the 
Nation may not be growing as many people previously envisioned, 
but it is aging--that much is certain. Most of the Nation's 
nuclear fleet has reached or is reaching its original ``design 
basis'' of operating for 40 years.
    An aging fleet presents unique safety challenges that will 
require continued diligence by the NRC to protect human health 
and the environment. The NRC's mission is enormously important 
and technically challenging.
    We know what's at stake: just over 7 years ago the Great 
East Japan Earthquake and the tsunami wave it triggered left 
workers at the Fukushima Daiichi nuclear plant powerless to 
prevent three reactors from melting down. In March 2017 the 
Japan Center for Economic Research estimated that the clean up 
cost could range from $470 billion to $658 billion.
    The domestic nuclear industry faces more than safety 
issues. The existing fleet is in danger even before current 
operating licenses expire because of economic conditions. An 
estimated 12,727 megawatts (MW) of nuclear capacity have been 
retired recently or will be retired by 2025 for economic 
reasons.
    Representative Patrick Meehan (R-PA, 7th) has introduced 
H.R. 4614, the ``Nuclear Powers America Act,'' to establish an 
investment tax credit (ITC) to help boost the industry.
    The nuclear power industry supports 475,000 jobs, adds $60 
billion to the Nation's Gross Domestic Product (GDP), and 
prevents over one-half billion tons of carbon emissions each 
year. Nuclear power plants are a critical provider of baseload 
electricity, operating 92 percent of the time.
    According to a recent analysis by Bloomberg New Energy 
Finance, 54 gigawatts (GW), or 55 percent of the U.S. nuclear 
fleet, is losing $2.9 billion per year, collectively. Realized 
power prices of $20-$30 per megawatt/hour (MWh) don't support 
average operational costs of $35/MWh.
    According to Bloomberg, replacing 54 GW of nuclear capacity 
with new combined cycle gas turbines (CCGTs) would increase 
power sector emissions by adding at least 175 million tons of 
carbon dioxide equivalent (MtCO2e) annually, putting at risk 
nearly 5 years of progress in reducing power sector carbon 
emissions.
    On top of economic problems facing the industry, last 
Thursday the Department of Homeland Security (DHS) and the 
Federal Bureau of Investigation (FBI) released a joint alert on 
Russian government actions targeting nuclear and other energy 
facilities.
    DHS and the FBI characterized this activity as a ``multi-
stage intrusion campaign'' ultimately aimed at gaining access 
to operation technology (OT) systems, such as control systems 
for nuclear power plants and conventional fossil-fuel-fired 
turbines, so that they could be manipulated to cause equipment 
failures or blackouts.
    The Russian government is attacking our nuclear facilities 
while President Trump is calling Vladimir Putin to congratulate 
him on winning what Freedom House correctly characterized as 
``sham elections for a dictator.''
    On a more positive note, if the U.S. can develop, license, 
and build small modular reactors (SMRs) and the next generation 
of advanced nuclear reactors in a cost effective manner, it 
will be able to reduce its reliance on fossil fuels even as 
older reactors are retired from the fleet.
    I'm anxious to hear about the Commission's progress with 
respect to reviewing the SMR design certification application 
from NuScale Power, which is headquartered in Portland, Oregon, 
but also has offices in Rockville, Maryland.
    And I'm interested to hear the Commission's opinions on the 
prospects and advantages of X-energy's ``Xe-100''--a 200 MW 
Pebble Bed High Temperature Gas-Cooled Reactor (HTGR). Pebble 
bed reactors cannot melt down. X-energy has a 5 year, $53 
million cooperative agreement with the U.S. Department of 
Energy (DOE) focused on: (1) furthering the Xe-100 reactor 
design, (2) establishing pebble fuel manufacturing capability, 
and (3) engaging with the NRC on licensing. I'm proud that X-
energy is headquartered in Greenbelt, Maryland.
    I look forward to hearing from Chairman Svinicki and 
Commissioners Burns and Baran, and I thank them for their 
public service and their willingness to appear before the 
Committee today.

    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    Chairman, I want to thank you for being here. I really 
appreciate your answers for the record from our last hearing in 
response to my questions about NRC readiness to review advanced 
reactors.
    You wrote that the NRC has aligned its readiness activities 
to support the Department of Energy's identified deployment 
goal of having at least two non-light water reactor designs 
reviewed by the NRC and ready for construction by the early 
2030s. To keep pace with DOE's stated goals, the NRC plans to 
achieve its strategic goal of readiness to effectively and 
efficiently review and regulate non-light water reactors by no 
later than 2025.
    The challenge I am facing is companies are telling me they 
are ready to apply a lot sooner than that. That is the tension. 
In your testimony today, you even stated you anticipate 
beginning one or more advanced reactor application reviews in 
the next 2 to 4 years.
    I am troubled that the NRC seems to be placing much higher 
importance on the DOE schedule than on the intentions of the 
actual applicants represented in the private sector. The first 
group of applicants with new technologies will have the highest 
costs and are depending on private capital for funding and face 
challenges therein. An inefficient NRC review process would 
cause them serious harm as I am sure you understand.
    Can the Commission--in any way--speed up its timeline for 
the readiness to review advanced reactors given the expectation 
that you will receive private sector applications long before 
the DOE's stated goal?
    Ms. Svinicki. Thank you, Senator.
    We are hearing the same feedback from the technology 
developers as well. As soon as we kind of hooked ourselves to 
that DOE schedule, we got feedback that by the time we publish 
that, it is probably not timely.
    I think the most beneficial thing we are doing is 
continuing to be in very broad engagement with individual 
technology developers. Of course, we are engaging kind of the 
direction of the enterprise as a whole.
    One thing that the advanced reactor technology developers 
are telling me is very positive is we are developing what we 
call these regulatory engagement plans. It is a generic term. 
Oklo calls theirs a licensing project plan.
    It is something a developer brings in and updates for the 
NRC. They are telling us when they think they would come into 
NRC to seek a regulatory reaction on perhaps a design attribute 
all the way up to submitting a full design for review.
    I will not call them a contract, but it is kind of an 
understanding between the NRC and an individual technology 
developer of what they would like us to react to when. The one 
thing they want to preserve is the flexibility. They have been 
able to take that to the financing community and others and 
say, this is the general understanding we have with the 
regulator.
    They tell me that is breeding confidence about the 
predictability of the regulatory framework. They like that it 
is very stylized and tailored to their individual development 
pace.
    Senator Booker. OK. In terms of budgetary concerns, how far 
do you anticipate the increased budget will get NRC toward the 
readiness to process these applications?
    Ms. Svinicki. I think as we continue to get into deeper and 
deeper technical engagement with the developers, the individual 
issues that come up are likely to require some funding in order 
to resolve. Say it is a new material, and we would like to do 
some confirmatory research or working with DOE, we would like 
to suggest they do some confirmatory research; it is really 
hard to estimate because the designs are in all different 
stages of finality.
    We do not want to begin to invest, and if for a materials 
issue, they can just choose a different material, and we would 
not need to do as much background, that is the kind of feedback 
they tell me they most benefit from, saying this alloy is 
really complicated for you, NRC, how about if we used one with 
which you are more familiar. That is the benefit of this pre-
application engagement.
    Senator Booker. Thank you very much.
    Mr. Baran, I feel bad for you sitting there without being 
grilled as much. The NRC has now formally docketed an 
application by Holtec Inc. to construct and operate 
consolidated interim storage facilities for spent fuel. Do you 
believe the NRC currently has sufficient staffing and funding 
to review this application in a timely manner?
    Mr. Baran. We have current funding to do two applications, 
the Holtec application for New Mexico, and if it is restarted 
at the request of the applicant, the Texas application. The 
2019 budget includes funding for both of those projects.
    Senator Booker. Thank you very much, sir.
    Just for the record, do you have respect and reverence for 
the State of New Jersey?
    Mr. Baran. I do, indeed.
    Senator Booker. Thank you, sir.
    Senator Barrasso. That is one.
    Senator Carper.
    Senator Carper. I want to play off some of what Senator 
Booker said. I want to talk a little bit about accident 
tolerant fuels.
    Maybe, Chairman Svinicki, you can take a shot at this and 
others if you like.
    Accident tolerant fuel is not something I have heard a lot 
about in the past, but I am hearing more about it now. I 
understand it is advanced fuel technology that can be--if I am 
not mistaken--retrofitted into our current fleet, is that 
right?
    Ms. Svinicki. Yes. I characterize the origin of accident 
tolerant fuel as the industry, after Fukushima, looking at 
opportunity to innovate in fuel for current reactors saying, 
couldn't we advance the technology, and if there were some sort 
of nuclear plant event or accident, the fuel could actually 
withstand extreme conditions much better. They knew there was 
opportunity there, but frankly, did not have the motivation.
    Senator Carper. You said they knew. Who are they?
    Ms. Svinicki. The industry knew there was an opportunity to 
improve the fuels. They had not really had a motivation to do 
it, though.
    Senator Carper. Let us drill down on that a bit. This 
technology can make fuel a lot safer?
    Ms. Svinicki. We have yet to see the face of the safety 
improvement, but yes, conceptually, it would better withstand 
an accident and therefore, would retain what we call the 
fission product. The bad stuff would be more likely to be 
retained in the core.
    Senator Carper. What is the effect on life? Would the fuel 
rods last longer?
    Ms. Svinicki. Again, although we would not look at the 
economics, I do understand it could cause improved operating 
cycles for reactor operators, meaning they might get more power 
out of the fuel per element. There is an economic benefit, 
which candidly is why they are pursuing it.
    Senator Carper. Commissioner Baran, do you agree with 
anything she said?
    Mr. Baran. I agree with everything she said. All I would 
add is there are a number of fuel vendors with a number of 
designs, some of them pretty evolutionary, some of them more 
significant departures from what we have seen in the past. I 
think the answer to some of these questions will depend on the 
specific design.
    Senator Carper. Is it possible that this technology could 
serve as a bridge to advanced reactors?
    Ms. Svinicki. Some of the advanced reactor types are so 
different from the current operating reactors that there may 
not be that much of a benefit. I do think one of the benefits 
of NRC looking at qualifying new fuel types is we get to 
exercise our ability to look at something new and novel. I 
think that prepares us to bring innovative regulatory 
approaches to advanced reactors. It maybe there is a benefit on 
our side.
    Mr. Baran. The fuel for advanced reactors, in some ways, 
may be the long pole in the tent. To the extent that some of 
the advanced reactor designs involve very different fuel than 
has been approved by NRC in the past, that is something, from a 
regulatory point of view, that could be the most challenging or 
time consuming element.
    Senator Carper. If the NRC can smoothly process licenses 
for accident tolerant fuel, is it possible that could serve as 
a signal from the NRC that we can find a way to process 
advanced reactors?
    Someone told me you may have issued a draft project plan in 
December 2017 on how the NRC plans on licensing accident 
tolerant fuel. You may have mentioned this, but is that true?
    Ms. Svinicki. Yes, we did. I believe we are receiving 
comment on that plan. Again, it was to create transparency 
around the process steps we would take.
    Senator Carper. You are getting some comment. How would you 
characterize the comments you are getting?
    Ms. Svinicki. I think it may be available for comment right 
now. I think the draft might have been published at the end of 
2017, and we are getting comment on it. I may be thinking of 
something else. If I am incorrect about that, I will clarify.
    Mr. Baran. The Commission is also going to have a public 
commission meeting next month in April on accident tolerant 
fuel. That will be an opportunity to directly hear from some of 
the vendors, from the Department of Energy and others involved 
in this to get a better sense of their timing, what changes, if 
any, to our regulatory framework they think might make sense, 
their schedules and the resources we would need to be ready for 
that.
    Senator Carper. Does the NRC currently have the staff you 
need to process transformation of technology?
    Mr. Baran. Recently, the staff established an innovation 
team that is looking at this very issue. I think it is a great 
focus for the team to stay focused on how the agency adapts to 
and prepares for new technologies whether it is accident 
tolerant fuel or advanced reactors, and we talked about digital 
instrumentation and control.
    Sometimes these new technology areas are the more 
challenging ones for the agency to make sure our regulatory 
framework is more suited for that. There is no question, for 
example, on advanced reactors where the entire existing fleet 
is light water reactors.
    We are going to have to look at some changes there to 
accommodate non-light water technology. I think that is a good 
focus for that group on the transformational side.
    Senator Carper. Thank you both.
    Senator Barrasso. Senator Gillibrand, you are next.
    Senator Gillibrand. Chairman Svinicki, I would like to 
build off the questions Senator Carper asked earlier in this 
hearing on the topic of cyber security. As you know, last week, 
the Administration again confirmed that Russian government 
cyber actors have targeted our critical infrastructure sectors, 
including the energy sector and nuclear power plants, in 
particular.
    These cyber attacks on nuclear companies and facilities are 
deeply alarming. I think everyone here recognizes the 
potentially devastating consequences if these malicious actors 
are able to compromise the critical safety functions of a 
nuclear power plant in the United States.
    The NRC cyber security rule requires all licensees to 
submit a cyber security plan designed to meet your 
requirements. Are licensees required to update those plans to 
respond to new or emerging cyber threats? If so, how, and how 
often?
    Ms. Svinicki. Thank you, Senator Gillibrand.
    Our cyber security regulations are what we call performance 
based, meaning they describe the objective of securing a system 
against cyber threats. As the cyber threat changes and becomes 
more severe, our regulations are written to the outcome of that 
protected system so they do not, in the strictest sense, 
require modification based on evolution in the threat.
    Senator Gillibrand. What steps has the NRC's cyber security 
directorate taken in response to these cyber attacks?
    Ms. Svinicki. We closely participate with the FBI, the 
intelligence community, and our experts are engaged in 
monitoring the threat. The information that the FBI released 
last week was activities we were aware of and engaged in the 
interagency monitoring of that threat.
    Senator Gillibrand. Are there any additional steps that 
should be taken to improve information sharing and reporting of 
cyber threats to the nuclear industry?
    Ms. Svinicki. I would characterize there is not as much 
stovepiping as there has been historically. I think this is a 
very dynamic area, and the interagency is working closely to 
make sure entities who need this information, including 
clearances for cyber experts at the utilities themselves, I 
would characterize there is greater information flow than there 
had been historically.
    Senator Gillibrand. Are there any changes proposed in the 
fiscal year 2019 budget request that would impact the NRC cyber 
security activities?
    Ms. Svinicki. I am not aware of any. If there are any, I 
will provide that for the record.
    Senator Gillibrand. Thank you.
    As you know, Indian Point Units 2 and 3 are scheduled to 
shut down in 2020 and 2021 respectively. My office is closely 
monitoring the decommissioning rulemaking the NRC is currently 
undertaking which aims to set a new regulatory framework for 
plants after they shut down.
    I am concerned that the regulatory analysis published by 
the NRC in January 2018 proposes to relieve licensees of the 
regulatory burden of providing site specific analysis or 
determining when a decommissioning plant is no longer subjected 
to a number of emergency preparedness requirements. These 
include the removal of the emergency planning zone, the public 
alert and notification system, and the reduction of emergency 
response personnel. I am very concerned that the NRC is intent 
on moving forward in a one size fits all approach to 
decommissioning in an effort to make the process easier for the 
industry and not adequately balancing the concerns raised by 
stakeholders who have real concerns about the safety of the 
sites when there is still spent fuel sitting in spent fuel 
pools for years.
    What would be the safety rationale for not requiring sites 
specific analysis when allowing a decommissioning plant to 
significantly reduce its emergency preparedness activities? 
That would be for both of you.
    Ms. Svinicki. Senator, the status of that rulemaking is 
that the staff has published a regulatory basis which includes 
some of the elements you have described. They have received 
comment on that and are now in the process of developing the 
proposed rule that would come before our Commission later this 
year.
    I know all members of our Commission will look closely at 
the public comment that has been received, and also the 
proposed rule will go out for comment as well. I will not pre-
judge the outcome of that rulemaking process.
    Senator Gillibrand. Just to add to your answer, Jeffrey, 
how do you intend to ensure the final decommissioning rule is 
balanced and addresses the concerns of stakeholders outside of 
the nuclear industry?
    Mr. Baran. Thank you. I appreciate the concerns you have 
expressed. We have had two public comment periods so far in the 
early part of this rulemaking. We got 200 public comments from 
States, local governments, non-profit groups, and communities, 
a lot of them raising concerns similar to the ones you just 
raised.
    I read all 200 of those comments. There are a lot of good 
ideas there. From my point of view, as an agency, we have to 
make sure we are looking thoughtfully at all the stakeholder 
comments we are getting with an open mind. We should be aiming 
to produce a balanced rule that addresses the concerns of a 
broad range of stakeholders.
    Senator Gillibrand. Thank you. You are committed as well to 
have a balanced rulemaking?
    Ms. Svinicki. Yes, very much so, and to examine the public 
comment.
    Senator Gillibrand. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    I thank both of you for being here.
    Madam Chairman, I think Senator Cardin covered some of the 
questions I was going to ask about the need to recruit more 
people--younger, talented people--into the NRC.
    I am going to ask sort of the other side of the question 
because work force stability, of course, is important to the 
mission of the NRC. We are proud to have the NRC in Rockville, 
Maryland. It is also obviously important to the folks in the 
surrounding area who are committed Federal employees.
    In the last 2 years, my understanding is the overall work 
force at the NRC has declined and dropped by about 12 percent, 
is that correct?
    Ms. Svinicki. That is correct.
    Senator Van Hollen. Only for the second time in history, 
the NRC delivered RIF notices to employees, is that correct?
    Ms. Svinicki. That is correct. Through attrition, we were 
able to find positions and were able to place the employees, so 
we did not involuntarily separate any of the employees in the 
RIF category.
    Senator Van Hollen. I appreciate the way that was managed 
under the circumstances.
    Do you anticipate any further RIFs going forward?
    Ms. Svinicki. No, and Senator, I appreciate the opportunity 
to clarify. The budget request for fiscal year 2019 does 
indicate a decrease in positions. That has to do with our 
ability to request positions for work we anticipate. However, 
the budget does not anticipate the need for involuntary 
separations, even though some areas of work are more active and 
some areas of work are less active.
    Senator Van Hollen. Great. I am pleased to hear that.
    I wanted to follow up on a couple of questions I understand 
Senator Markey asked regarding Saudi Arabia's interest in 
purchasing nuclear reactors and the possibility the United 
States would be a part of that. Westinghouse is obviously 
interested in going forward.
    What exactly is the role of the NRC when it comes to 
reviewing an overseas nuclear agreement?
    Ms. Svinicki. Thank you for the opportunity to clarify.
    Under the Atomic Energy Act, Section 123--which is why they 
are called 123 agreements--the NRC's role is very specific. It 
has to do with providing expert review of the narrow provisions 
of a broader 123 that have to do with export licensing which is 
a unique authority of the U.S. NRC. We provide just expert 
input to make certain that the few provisions of a 123 that 
affect our export licensing framework are accurately 
represented, and they can basically be implemented and 
effectuated under our regulatory framework.
    The broader political arrangements and discussions are well 
outside the scope of our participation in the 123. The Atomic 
Energy Act also stipulates that when the Secretaries of State 
and Energy convey a completed negotiated agreement to the 
President, the views of our Commission go in a separate letter 
that is sent that we attest to this narrow responsibility we 
have under the Atomic Energy Act. We are involved in the 
broader discussions.
    Senator Van Hollen. I understand you are not the lead 
negotiator, but you have a statutory role within this process. 
I understand you are responsible for authorizing licenses to 
export U.S. technology to foreign countries.
    The 123 agreement we signed with UAE; I assume the NRC 
participated in that the way you said, right?
    Ms. Svinicki. Yes.
    Senator Van Hollen. That is considered the gold standard in 
terms of preventing non-proliferation, isn't that right?
    Ms. Svinicki. Yes. Again, our views to the President 
certify that the role we have under the Atomic Energy Act is 
accommodated in the arrangement. We do not take a policy view 
on the broader non-proliferation aspect. On the UAE 123, I am 
not remembering that there was any opining on the gold standard 
or anything related to that. It is a brief letter that speaks 
to our narrow role under the Atomic Energy Act.
    Senator Van Hollen. I appreciate that.
    Mr. Chairman, I just want to say that this question may be 
coming before the Senate. I do think on the policy ground, we 
need to be very vigilant in making sure that any sale of U.S. 
nuclear reactors meets the gold standard requirements to 
prevent nuclear proliferation. I am very concerned about a lot 
of the reporting in the newspapers suggesting that Saudi Arabia 
would not adhere to the same requirements as we apply to the 
UAE in that nuclear agreement.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Chairwoman Svinicki, it is so good to see you again.
    During our last hearing, we began a conversation on how you 
are working to improve the safety culture at the NRC. At that 
time, you outlined NRC's goals of creating a positive 
environment for raising concerns, promoting a culture of 
fairness and empowerment, and establishing expectations and 
accountability for leadership.
    However, since our conversation, a recent study developed 
by NRC's Office of Enforcement at the Commission found that 
reprisal issues remain a concern. It appears that in passing 
the 2005 Energy Policy Act, Congress amended the definition of 
employer under the Energy Reorganization Act to include DOE, 
NRC, and NRC contractors and subcontractors.
    However, a recent administrative law opinion issued by the 
Department of Labor last year found because the 2005 amendments 
did not explicitly waive sovereign immunity for whistleblower 
actions under the ERA, NRC employees still do not have 
whistleblower protections under that specific law. Right now, 
this interpretation of an unclear law is being appealed to the 
Administrative Review Board, and that decision could be 
appealed to a Federal Court of Appeals. This litigation could 
take years and cost thousands if not millions in taxpayer 
dollars.
    Would you agree with me that Congress could save taxpayer 
dollars and save the Federal Government time and energy by 
simply passing a technical fix that clarifies under the Energy 
Reorganization Act, NRC and DOE employees, contractors, and 
subcontractors are actually, in fact, entitled to the law's 
whistleblower protections?
    Ms. Svinicki. Thank you, Senator Duckworth, for your 
attention to this matter.
    We share the view that any suggestions or concerns about 
reprisal are something our Commission and senior agency 
executives take very seriously. As you have noted, there is 
ongoing litigation. Our agency is one of the relevant agencies 
in that litigation, so I want to be very careful in not 
speaking outside the framework of that ongoing litigation 
matter.
    Specifics of the legislation that you describe, I have not 
looked closely at what a fix or modification of that would do. 
If I could respond for the record, I think I could acquaint 
myself more fully with the proposal.
    Senator Duckworth. That would be great. If you could do 
that for the record, that would be very helpful. We are happy 
to help you with that legislation.
    I would also like to continue our conversation on force on 
force testing. As you know, the NRC regularly conducts force on 
force testing at nuclear power plants which are critical to 
ensuring that we understand what our security vulnerabilities 
are at these facilities.
    We have 13 of them in Illinois. Over the past decade the 
results have been fairly consistent with one field exercise per 
year for the past decade. I am concerned that the NRC is 
considering reducing the number of force on force exercises 
they conduct in favor of exercises planned and conducted by the 
licensee as opposed to those done by the NRC.
    I understand the NRC is reviewing staff recommendations now 
on this very issue. Can you reassure me that safety and safety 
alone will determine the outcome of this decision and not the 
cost of the testing itself?
    Ms. Svinicki. Yes, I can assure you of that. I am certain 
that our Commission broadly takes that same perspective. We 
would not want to see a diminishment in our expectation on the 
security levels and standards at U.S. nuclear power plants.
    Senator Duckworth. Commissioner Baran, would you like to 
comment on that?
    Mr. Baran. Thank you. I would just add that you pointed out 
there was a recommendation to from two force on force exercises 
to one and to have an NRC inspection of a licensee conducted 
force on force in lieu of NRC conducting that force on force.
    I voted on this matter. So far, we are still voting as a 
Commission on it. I do not support that approach. I think that 
would not enhance the effectiveness of our physical security 
inspection program or our force on force program.
    The only potential benefit there would be to reduce cost. 
That is actually far from certain because if you do just one 
force on force and you get something other than a positive 
result, it leads you to a situation where you have to 
contemplate perhaps rescheduling and replanning a second force 
on force at an even bigger cost than you would have had 
originally if you had just planned for two right off the bat.
    I have significant concerns with going in that direction. 
It is not something I support.
    Senator Duckworth. Thank you.
    Chairwoman Svinicki, I understand that the NRC has rules 
governing cyber protection safeguards. I know Chairman Barrasso 
has mentioned Russian hackers have been targeting U.S. nuclear 
power plants and other critical facilities.
    Can the rules the NRC has now be strengthened to mitigate 
our vulnerability to these types of attacks?
    Ms. Svinicki. We will always be looking at the cyber threat 
against U.S. infrastructure as it evolves. At the present 
moment, although we maintain a constant look at this, we think 
our regulations are written in a way that describes more the 
objective than the how. It does allow the measures to be 
adapted to the threat as it evolves without requiring a change 
in the regulations themselves.
    Senator Duckworth. Thank you.
    Senator Barrasso. Thank you, Senator Duckworth, for 
following up on my questions on cyber security. I appreciate 
it.
    We are finished with the testimony.
    I see Senator Markey has returned; if you would like a 
question or two.
    Senator Markey. Thank you so much, Mr. Chairman.
    I want to follow down this cyber trail because obviously 
the Department of Homeland Security has, in fact, released a 
report showing the Russians hacked into our power 
infrastructure including nuclear power plants. That is a 
massive threat to our country.
    Let me ask you this, Commissioner Baran. Are the American 
nuclear power plants prepared to deal with Russian attacks on 
our power plant system?
    Mr. Baran. I think NRC's cyber security regulations have 
been very forward looking. Long before I arrived on the scene, 
they were in place and are being implemented. I think the cyber 
security posture at our power plants is really quite good.
    Senator Markey. What grade would you give it right now?
    Mr. Baran. I do not know if I could give it a grade.
    Senator Markey. I asked Joe Tucci, the CEO of EMC which has 
RSA as one of its components and Dell has now purchased EMC, 
but RSA is pretty much the state of the art in terms of cyber, 
and I asked him, how come there are so many successful cyber 
attacks in America?
    He said, well, honestly, company CEOs just do not want to 
continually have to spend the money to have the highest 
possible standard in place. It is a constantly evolving process 
to make sure they keep buying our state of the art to protect 
because we are constantly upgrading, but they do not want to 
spend the money.
    Do you find any resistance from nuclear utility executives 
to constantly spending the money to have the update to ensure 
the plants have the state of the art, March 2018, cyber 
security built into their nukes?
    Mr. Baran. I think the way we get around it is we require 
it. It is not an option.
    Senator Markey. I know you require it, but do they, in 
fact, comply, in your opinion? Do they do it?
    Mr. Baran. We expect their compliance. I have not heard of 
any concerns our cyber security inspectors have had in that 
regard.
    Senator Markey. It is your opinion that the nuclear power 
plant operators in America are, in fact, using the state of the 
art cyber protections? You are saying you think those 98 
plants, or whatever, are?
    Mr. Baran. The way our regulations are set up, we identify 
the end state, as the Chairman mentioned, that you need to 
achieve. It is a performance based requirement. We do not say 
you have to use this widget or this technique; we say you need 
to be protected. That is the regulatory requirement.
    Senator Markey. No, I appreciate that. Let me ask you this. 
Are you familiar with the pathways which the Russians used to 
try to penetrate our nuclear power plants? Have you looked at 
those reports?
    Mr. Baran. Our cyber security experts and those in other 
agencies have looked at that issue, yes.
    Senator Markey. Do you think, in fact, those pathways that 
they were trying to penetrate are secure?
    Mr. Baran. The penetrations that occurred were to corporate 
accounts, which are separate from the operating reactor 
systems. That separation is key to the defense of those 
systems.
    Senator Markey. Do you have records of attacks or attempts 
to penetrate into the nuclear facilities themselves? Do you 
have reports of that you review in terms of the pathways we 
used and the security uniformly across the industry that has 
been adopted in order to preclude success?
    Mr. Baran. I guess the piece I could point to there is in 
recent years, in the last couple of years, NRC has established 
a regulatory requirement for power plant licensees to send a 
notification to NRC in certain circumstances if a cyber attack, 
for example, were effective. We have not received a 
notification of that kind.
    Senator Markey. OK. How often are the Russians or others 
trying to penetrate the nuclear power facilities themselves? In 
the course of a year, how many times do you think that would 
occur?
    Mr. Baran. I do not know the specific number.
    Senator Markey. Are we talking handful, dozens or more in 
terms of the totality of all nuclear power plants in the 
country?
    Mr. Baran. I want to be careful about how specific we get, 
but there are a lot of threats, and there are a lot of 
attempts. It is not just in the context of Russia. Cyber 
security is an evolving threat and an active threat. It is not 
a handful of issues each year.
    Senator Markey. It is not a handful?
    Mr. Baran. It is not.
    Senator Markey. It is many more than a handful?
    Mr. Baran. That is right.
    Senator Markey. OK. I think that is important to 
understand. How do you actually give a grade to the company in 
terms of whether or not their upgrading of the cyber 
protections, which they are purchasing from the private sector 
in order to have them installed, how do you evaluate that? Who 
does that?
    Mr. Baran. We do not assign a letter grade, but our 
inspectors, our cyber security inspectors at NRC, who are 
expert in this area, will inspect them against our regulatory 
requirements to ensure they are in compliance.
    Senator Markey. Are you going to have the same standard for 
the nuclear fuels cycle facilities as you have for nuclear 
power plants?
    Mr. Baran. We are working on that right now.
    Senator Markey. Will it be the same standard?
    Mr. Baran. I do not know that it will be identical because 
the facilities are not identical. But I feel strongly that we 
need to have strong, effective cyber security requirements for 
our fuel cycle facilities as well.
    Senator Markey. What I learned from RSA is the whole key is 
you have to spend the money. These companies do not like to. 
They want to hire Wackenhut to do the force on force and have a 
self-grade. They do not like spending money, I found, on 
security, nuclear power plant operators in general.
    I will be coming back to you. I just want to know what the 
frequency is with which they have to upgrade and buy the new 
state of the art cyber technologies to protect. There has to be 
some standard they are constantly being given to make sure they 
can pass.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Thank you very much for being here to testify today.
    Members may submit follow up written questions for the 
record. The hearing record will remain open for 2 weeks.
    I want to thank the witnesses for your time and your 
testimony.
    The hearing is adjourned.
    [Whereupon, at 11:36 a.m., the Committee was adjourned.]

                                 [all]



</pre></body></html>
